No.: 19-994
PROOF OF SERVICE
I, Jeffrey Lance Hill, Sr., hereby declare that on this
date, April
. 2020, as required by Supreme
Court Rule 29,1 served the enclosed PETITION FOR
REHEARING on each party to the above proceeding
or that party’s counsel, and on each other person
required to be served, by U.S. Mail, postage prepaid,
properly addressed to each of the following: William
H. Stafford, III, Phone: 850-414- 3785, attorney for
Respondents Leandra G. Johnson, Gregory S.
Parker, and William F. Williams, III at PL-01 the
Capitol, Tallahassee Florida 32399-1050; Francis E.
Springfield, Phone: 352-371-9909, attorney for
Jennifer B. Springfield at 806 NW 16th Ave. Suite B,
Gainesville, Florida 32601; David C. Willis, attorney
for Respondent Suwannee River Water Management
District at P.O. Box 1873, Orlando, Florida 32801;
Susan S. Erdyli, Phone: 904-398-0900, attorney for
Respondent City of Lake City, Florida at 1200
Riverplace Blvd., Suite 800, Jacksonville, Florida
32207; Joel F. Foreman, Respondent, Phone: 386752-8420 at P.O. Box 550, Lake City, Florida 32056;
and Respondent Columbia County, Florida, Phone:
386-755-4100 at 135 N. Hernando Ave., Lake City,
Florida 32055.
I declare under penalty of perjury that the foregoing
is true and correct. Executed on this 3/7^ day of
April, 2020 at Lake City, Florida.
Jeffrey Lance Hill, Sr., 908 SE Country Club Road,
Lake City, Florida 32025, Phone: 386-623-9000,
Petitioner, pro se

